 Spotlight
 Department of Homeland Security

Ofﬁce of Inspector General                                                                                  January 2012 OIG-12-26



(U) Covert Testing of Access Controls to Secured
Airport Areas

Unclassified Summary
The Transportation Security Administration (TSA) is responsible for overseeing the implementation, and ensuring the adequacy of,
airport security measures as specified in individual Airport Security Programs. The agency is also required to assess and test airport
access controls on an ongoing basis to ensure compliance. Additionally, federal regulations require aircraft operators to have
procedures in place to restrict unauthorized access to aircraft.

Since the events of September 11, 2001, TSA has spent billions of dollars on multiple layers of aviation security. TSA relies on
these layers to ensure the safety of the traveling public. These include the Travel Document Checker, checkpoint Transportation
Security Officers, checked baggage screening, Transportation Security Inspectors, and passengers. Throughout commercial airports,
security measures are used to protect public, sterile, and secured airport areas as well as Air Operations Areas and Security
Identification Display Areas.

Through covert testing, we determined whether TSA's policies and procedures prevent unauthorized individuals from gaining access
to secured airport areas. We also identified the extent to which Transportation Security Officers, airport employees, aircraft
operators, and contractors are complying with related federal aviation security requirements. The compilation of the number of tests
conducted, the names of airports tested, and the quantitative and qualitative results of our testing are classified, or designated as
Sensitive Security Information. We have shared the information with the Department, the TSA, and appropriate Congressional
committees.

We identified access control vulnerabilities at the domestic airports where we conducted testing. As a result of our testing, we made
six recommendations to TSA. TSA concurred with three recommendations, partially concurred with two recommendations, and did
not concur with one recommendation. When fully implemented, our recommendations should strengthen the overall effectiveness of
the airport access controls.




For Further Information:
Contact our Office of Public Affairs at (202)254-4100, or email us at DHS-OIG.OfficePublicAffairs@dhs.gov
